     DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                        Office of Audit Services, Region V
                                                                        233 North Michigan Avenue
                                                                        Suite 1360
                                                                        Chicago, IL 60601

May 21, 2010

Report Number: A-05-09-00048

Julie Hamos
Director
Illinois Department of Healthcare and Family Services
201 South Grand Avenue East
Springfield, IL 62763


Dear Ms. Hamos:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid High-Dollar Payments for Inpatient
Services in Illinois From January 1, 2006, Through September 30, 2007— Hospitals With Fewer
Than Five High-Dollar Payments. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Stephen Slamar, Audit Manager, at (312) 353-7905 or through email at
Stephen.Slamar@oig.hhs.gov. Please refer to report number A-05-09-00048 in all
correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Julie Hamos


Direct Reply to HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations (CMCHO)
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL


      REVIEW OF MEDICAID
  HIGH-DOLLAR PAYMENTS FOR
 INPATIENT SERVICES IN ILLINOIS
FROM JANUARY 1, 2006, THROUGH
SEPTEMBER 30, 2007—HOSPITALS
  WITH FEWER THAN FIVE HIGH-
       DOLLAR PAYMENTS




                      Daniel R. Levinson
                       Inspector General

                          May 2010
                        A-05-09-00048
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

The Department of Healthcare and Family Services (the State agency) administers the Medicaid
program in Illinois. The State agency uses its Medicaid Management Information System to
process claims.

Pursuant to section 1903(a)(1) of the Act, Federal reimbursement is available only for
expenditures that constitute payment for part or all of the cost of services furnished as medical
assistance under the State plan. Pursuant to 42 CFR § 433.312, the State must refund the Federal
share of unallowable overpayments made to Medicaid providers.

Attachment 4.19-A, chapter I, section (C)(1) of the State plan requires the State agency to use a
prospective payment system for medical assistance payments for inpatient hospital services.
Under the prospective payment system (PPS), the State agency pays hospital costs at
predetermined rates for patient discharges based on the diagnosis-related group to which a
beneficiary’s stay is assigned. The diagnosis-related group payment is, with certain exceptions,
payment in full to the hospital for all inpatient services.

Attachment 4.19-A, chapter I, section (C)(5) of the State plan provides for an additional medical
assistance payment, known as an outlier payment, to hospitals for cases incurring extraordinarily
high costs.

Pursuant to Attachment 4.19-A, chapter VII, section (E)(2) of the State plan, the State agency
must reduce medical assistance payments to the extent that the beneficiary’s hospital stay is
covered by third parties, such as workers compensation insurance.

During the audit period of January 1, 2006, through September 30, 2007, the State agency
processed and paid approximately 1.5 million inpatient claims, 286 of which resulted in
payments of $200,000 or more (high-dollar payments) to hospitals for services. We reviewed 62
high-dollar payments, totaling $17,237,356 that were made to hospitals that each received fewer
than 5 such payments during our audit period.

OBJECTIVE

Our objective was to determine whether selected high-dollar Medicaid payments that the State
agency made to hospitals for inpatient services were appropriate.

                                                 i
SUMMARY OF FINDING

Seventeen of the 62 high-dollar Medicaid payments that the State agency made to hospitals for
inpatient services for the period January 1, 2006, through September 30, 2007, were appropriate.
The 45 remaining payments included overpayments totaling $635,141 ($318,385 Federal share).
For 44 of the payments, hospitals reported incorrect charges that resulted in inappropriate outlier
payments to hospitals, and for one payment, a hospital submitted a claim for services that should
have been paid by workers compensation insurance. Hospital officials attributed the incorrect
charges to data entry errors and a lack of documentation to support the higher charges. The one
workers compensation insurance claim was adjudicated during our field work.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $318,385 to the Federal Government and

    •   consider using the results of this audit in its provider education activities related to data
        entry procedures and proper documentation.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
described corrective actions that it planned to take. The State agency’s comments are included in
their entirety as the Appendix.




                                                  ii
                                                 TABLE OF CONTENTS


                                                                                                                          Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program........................................................................................1
              Illinois’ Medical Assistance Payments for Inpatient Hospital Services .....1

         OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................2
              Objective ......................................................................................................2
              Scope ............................................................................................................2
              Methodology ................................................................................................2

FINDING AND RECOMMENDATIONS.......................................................................3

          FEDERAL REQUIREMENTS................................................................................4

          STATE PLAN REQUIREMENTS .........................................................................4

          INAPPROPRIATE HIGH-DOLLAR PAYMENTS ...............................................4

          RECOMMENDATIONS .........................................................................................4

STATE AGENCY COMMENTS .....................................................................................4




                                                                   iii
                                              INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

Pursuant to section 1903(a)(1) of the Act, Federal reimbursement is available only for
expenditures that constitute payment for part or all of the cost of services furnished as medical
assistance under the State plan. Pursuant to 42 CFR § 433.312, the State must refund the Federal
share of unallowable overpayments made to Medicaid providers.

Illinois’ Medical Assistance Payments for Inpatient Hospital Services

The Department of Healthcare and Family Services (the State agency) administers the Medicaid
program in Illinois. The State agency uses its Medicaid Management Information System to
process hospital inpatient claims. 1

Attachment 4.19-A of the State plan describes the methods and standards that the State agency
must use to determine medical assistance amounts for inpatient hospital services. Attachment
4.19-A, chapter I, section (C)(1) of the State plan requires the State agency to use a prospective
payment system (PPS) for inpatient hospital services. Under the PPS, the State agency pays
hospital costs at predetermined rates for patient discharges. The rates vary according to the
diagnosis-related group (DRG) to which a beneficiary’s stay is assigned. The DRG payment is,
with certain exceptions, payment in full to the hospital for all inpatient costs associated with the
beneficiary’s stay.

Attachment 4.19-A, chapter I, section (C)(5) of the State plan provides for an additional medical
assistance payment, known as outlier payments, to hospitals for inpatient services incurring
extraordinarily high costs. 2 The State agency determines outlier payments for inpatient services


______________________________
1
  The Medicaid Management Information System is a mechanized claims processing and information retrieval
system that States are required to use to record Title XIX program and administrative costs, report services to
recipients, and report selected data to CMS.
2
 Outlier payments occur when a hospital’s charges for a particular Medicaid beneficiary’s inpatient stay
substantially exceed the DRG payment.




                                                          1
by comparing the estimated costs of an inpatient service against a DRG specific fixed-loss
threshold. 3 To estimate the cost of an inpatient service, the State agency uses Medicaid charges
that the hospital reports on its claim and the hospital-specific cost-to-charge ratio. Inaccurately
reporting charges could lead to excessive outlier payments.

Attachment 4.19-A, chapter VII, section (E)(2) of the State plan requires the State agency to
reduce medical assistance payments to the extent that the beneficiary’s hospital stay is covered
by third parties, such as workers compensation insurance.

During the audit period of January 1, 2006, through September 30, 2007, the State agency
processed approximately 1.5 million inpatient claims, 286 of which resulted in payments of
$200,000 or more (high-dollar payments) to hospitals for services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected high-dollar Medicaid payments that the State
agency made to hospitals for inpatient services were appropriate.

Scope

We reviewed 62 of the 286 high-dollar payments for inpatient claims that the State agency
processed during the period January 1, 2006, through September 30, 2007. The 62 high-dollar
payments, which totaled $17,237,356, were made to hospitals that each received fewer than 5
such payments during the period. We are conducting a separate review of the 224 remaining
high-dollar payments, totaling $69,748,844, made to hospitals that each received 5 or more such
payments.

We limited our review of the State agency’s internal controls to those applicable to the 62 claims
because our objective did not require an understanding of all internal controls over the
submission and processing of claims. Our review allowed us to establish a reasonable assurance
of the authenticity and accuracy of the data obtained from CMS’s Medicaid Statistical
Information System, but we did not assess the completeness of the file. 4 We conducted our
fieldwork from December 2008 through November 2009.

Methodology

To accomplish our objective, we:

   • reviewed applicable Federal and State laws, regulations and guidance;
______________________________
3
 A DRG-specific fixed-loss threshold is a dollar amount by which the costs of a case must exceed payments to
qualify for an outlier payment.
4
 The Balance Budget Act of 1997 (P.L. No. 105-33) required that all State Medicaid programs submit claims and
eligibility data to CMS. CMS’s Medicaid Statistical Information System is the repository for this data.



                                                        2
      •    reviewed the CMS-approved Illinois State plan, including its Attachment 4.19-A;

      •    extracted all high-dollar payments 5 for inpatient hospital services in Illinois from CMS’s
           Medicaid Statistical Information System file. The resulting database included 286 claims
           from 49 hospitals;

      •    contacted the State agency to determine whether the 286 high dollar payments had been
           cancelled or superseded by revised claims, whether payments remained outstanding at the
           time of our field work, and whether the State agency received Federal reimbursements to
           match high-dollar payments;

      •    separated hospitals that had fewer than 5 high-dollar payments from hospitals that
           received 5 or more high-dollar payments. The resulting database had 34 hospitals with 62
           high-dollar payments totaling $17,237,356;

      •    contacted officials from the 34 hospitals that received the 62 high-dollar payments to
           determine whether the information originally reported on the claims was correct and, if
           not, why the claims were incorrect and whether the hospitals agreed that refunds were
           appropriate;

      •    submitted corrected claims and correspondences that we received from the hospitals to
           the State agency; and

      •    validated with the State agency that inappropriate payments occurred and that refunds
           were appropriate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATIONS

Seventeen of the 62 high-dollar Medicaid payments that the State agency made to hospitals for
inpatient services for the period January 1, 2006, through September 30, 2007, were appropriate.
The 45 remaining payments included overpayments totaling $635,141 ($318,385 Federal share).
For 44 of the payments, hospitals reported incorrect charges that resulted in inappropriate outlier
payments to hospitals, and for one payment, a hospital submitted a claim for services that should
have been paid by workers compensation insurance. Hospital officials attributed the incorrect
charges to data entry errors and a lack of documentation to support the higher charges. The one
workers compensation insurance claim was adjudicated during our field work.


______________________________
5
    Payments of $200,000 or more were considered high-dollar payments for the purpose of this review.



                                                          3
FEDERAL REQUIREMENTS

Pursuant to section 1903(a)(1) of the Act, Federal reimbursement is available only for
expenditures that constitute payment for part or all of the cost of services furnished as medical
assistance under the State plan. Pursuant to 42 CFR § 433.312, the State must refund the Federal
share of unallowable overpayments made to Medicaid providers.

STATE PLAN REQUIREMENTS

Attachment 4.19-A, chapter I, section (C) (5) of the State plan provides for outlier payments to
hospitals, in addition to prospective payments, for cases incurring extraordinarily high costs.
Pursuant to Attachment 4.19-A, chapter V, section (C)(2) of the State plan, outlier payments are
made to hospitals for covered inpatient services furnished to a Medicaid beneficiary if the
hospital’s charges, as adjusted by the hospital-specific cost-to-charge ratio, exceed the DRG
payment for the case.

Attachment 4.19-A, chapter VII, section (E) (2) of the State plan requires the State agency to
reduce the Medical assistance payments to the extent that the beneficiary’s hospital stay is
covered by third parties such as workers compensation insurance.

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

The State agency made 45 inappropriate payments totaling $635,141 ($318,385 Federal share),
which hospitals had not refunded prior to the start of our audit. For 44 of the 45 inappropriate
payments, hospitals submitted claims with incorrect charges, and 1 claim should have been paid
by workers compensation insurance.

The hospitals attributed the incorrect charges on 44 claims to data entry errors, and a lack of
documentation to support the higher charges. The one workers compensation insurance claim
was adjudicated during our audit.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $318,385 to the Federal Government and

    •   consider using the results of this audit in its provider education activities related to data
        entry procedures and proper documentation.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
described corrective actions that it planned to take. The State agency’s comments are included in
their entirety as the Appendix.




                                                  4
APPENDIX
                              APPENDIX: STATE AGENCY COMMENTS 




 ·. F;S           'll.'.~O'1 ~ftAII"'~' ~,

lH                Hcalthcmc and
                  Family Servin's
                                                                              Pat Quinn, GQvernor
                                                                              Julie Hamos, Director


201 South Grand Avenue East                                                   Telephone: (217) 782-1200 

Springfield, Illinois 62763-0002                                              TTY: (800) 526-5812 




                                                  May 12,2010




     Department of Health and Human Services 

     Ofl1ce of Audit Services, Region V 

     Attn: James C. Cox, Regional Inspe.ctor General for Audit Services 

     233 North Michigan Avenue, Suite 1360 

     Chicago, Illinois 60601 


     Re: Draf t Audit Report Number /\-05-09-00048

     Dear 1v1r. Cox:

     Thank you tor providing the opporttmity to comment on your draft audit report entitled "Review of
     Medicaid High-Dollar Payments tlX Inpatient Services in Illinois from January I, 2006, through
     September 30,2007 - Hospitals wi1h Fewer than Five High-Dollar Payments".

     The Department concurs with the findings and will recoup the identified ovem3ymenL" from the
     hospitals. The Department will also adjust the quarterly claim to credit CMS fi)r lederal funds
     previously received as a result {)f such hospital payments. Vic appreciate the work done by your audit
     team and will use the report to consider changes in procedures to prevent such overpayments in the
     future.

     If YOll have any questions or comments about our response to the audit, please contact Peggy Edwards,
     External Audit Liaison, at (217) 785-9764 or through email at pel! ~v.edwards:'(l.iiJ1inojs, !lo\' . .

     Sincerely,



    Jl.::.:s~
     Director




E-mail: hfs ....vebmaster@illinois. aov                                     Internet: httP;//INWW.hfs.illinois.gov/
